                      CLOSEOUT FOR M94110039

     On November 23, 1994, OIG received a letter from Dr.    -
                             f the Committee on Research Integrity
                                    of Medicine (the university) in
                                    ormed us that the committee had
                              f misconduct in science against Dr.
                                 ct) had substance and warranted
                                t who brought this matter to the
university's attention was Dr. ,
                               -              a fomer postdoctoral
researcher in the subject's laboratory. The complaint emerged out
of a long standing conflict between the subject and the
complainant.
   -          This conflict had been mediated two years earlier by
Dr.                       (the mediator) when he ivas head of the
                                              was funded in part by
                                               entitled

     At the university's request, OIG agreed to defer action on
this case until the university completed its investigation. On
February 23, 1995, the university transmitted its investigation
report. OIG reviewed the report and concluded that its factual
findings supported the university's judgment that no misconduct had
occurred.
     There were four allegations of misconduct against the subject.
The first was that she violated an agreement with the complainant
by changing the order of authorship of a collaborative paper
without informing the complainant that she was doing so. The
investigating committee interviewed the subject, the complainant,
and the mediator and examined the letter that the mediator wrote to
the subject recording the subjectls agreement with the complainant.
Based on this letter, the testimony of the subject, and the
testimony of the mediator, the committee concluded that the
agreement did not cover authorship order on the manuscript in
question. It therefore concluded that the subject did not violate
the agreement by changing the authorship order on the manuscript.
     The committee further concluded that the subject did not
seriously deviate from accepted practice when she changed the
authorship order on the paper unilaterally and without informing
the complainant. The committee concluded that it was within the
range of accepted practice in the discipline and at the university
for principal investigators, when reporting work done exclusively
in their laboratories, to make decisions about authorship order on
                           page 1 of 3                      M94-39
papers without notifying junior co-authors or seeking their
approval. The university accepted the committee's judgment about
accepted practice, and OIG has no reason to believe that that
judgment is in error. The committee opined, however, that the
subject's action in not notifying her co-author of the change in
authorship order was poor practice, even if it was not misconduct
in science.
     In OIGus view, the subject's contribution to the paper, as
described in the investigation report and supporting materials,
indicated that her claim of first authorship was itself not out of
line with accepted practices and could not be considered
misconduct.
     The second allegation of misconduct was that the subject did
not provide the complainant with the final draft of their
manuscript so that the complainant could review it before the
manuscript was submitted for publication. The evidence indicated
that the complainant had seen and approved the penultimate draft,
which was substantially similar to the final draft, and had agreed
that certain minor changes were necessary. OIG agrees with the
committee that, under these circumstances, failing to obtain
approval of the final draft of the manuscript from all co-authors,
though undesirable, was not a serious deviation from accepted
practices.
     The third allegation concerned the subject' s unilateral
assignment of copyright to the journal in which the manuscript was
published. The subject and the complainant clearly agreed to
submit the manuscript to this journal.          In the scientific
community, journals usually require assignment of copyright when a
manuscript is accepted for publication.          If the subject's
submission of the manuscript was not itself misconduct, as the
committee concluded it was not, then the assignment of copyright,
which followed routinely from this submission, cannot be considered
misconduct.
     The fourth allegation was that the subject entered into an
agreement to collaborate with another scientist in violation of her
pact with the complainant not to do so. The committee determined
that, when the subject had exploratory conversations with the other
scientist about a possible collaboration, she promptly informed the
complainant of this fact. It also concluded that the subject did
nothing to try and exclude the complainant from this potential
collaboration.     The evidence indicated that the potential
collaboration never became a reality and that, when the
conversations took place, the agreement not to collaborate was due
to expire in three months. OIG concluded that the subject, by
participating in preliminary discussions of a research project that
she had promised not to undertake during the period of her
agreement with the complainant, did not seriously violate the norms
of the scientific community or do anything that might have
                           page 2 of 3                      M94-39
substantially harmed the complainant.
     OIG wrote to the subject to tell her that we were closing   the
case without a finding of misconduct.       We explained that     we
accepted her university's conclusion that her actions did        not
seriously deviate from accepted practices and hence were         not
misconduct,
     This case is closed and no further action will be taken.




                           page 3 of 3
